1

APPENDIX
TABLE OF CONTENTS
Page
Appendix A (Court of appeals denial dated May
9, 2019)....................................................................

la

Appendix B (Appellate Division Second Depart­
ment Decision entered on May 23, 2018).........

2a

Appendix C (Supreme Court Nassau County De­
cision entered on July 24, 2015)........................

6a

Appendix D (Supreme Court Nassau County
Decision entered on December 10, 2012).........

12a

la
APPENDIX A
State of New York
Court of Appeals
Decided and Entered on the
ninth day of May, 2019
Present, Hon. Janet DiFiore, Chief Judge, presiding.
Mo. No. 2019-222
JP Morgan Chase Bank, NA,
Plaintiff,
v.
Offa Levin,
Appellant,
Wells Fargo Bank, NA, &c.,
Respondent,
et al.,
Defendants.
Appellant having moved for leave to appeal to the
Court of Appeals in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is denied.
/s/

John P. Asiello
John P. Asiello
Clerk of the Court

2a
APPENDIX B
Supreme Court of the State of New York
Appellate Division: Second Judicial Department
D55396
M/hu
__ AD3d

Submitted - January 18, 2018

REINALDO E. RIVERA, J.P.
COLLEEN D. DUFFY
BETSY BARROS
ANGELA G. IANNACCI, JJ.

2015-07941

DECISION & ORDER

JP Morgan Chase Bank, NA,
plaintiff, v Ofra Levin, appellant,
Wells Fargo Bank, NA, etc.,
respondent, et al., defendants.
(Index No. 337/10)

Ofra Levin, North Woodmere, NY, appellant pro se.
Donohue, McGahan, Catalano & Belitsis, Jericho,
NY (Erik H. Rosanes of counsel), for respondent.
In an action to foreclose a mortgage, the defendant
Ofra Levin appeals from a judgment of the Supreme
Court, Nassau County (Thomas A. Adams, J.), entered
July 24, 2015. The judgment, insofar as appealed from,
upon an order of the same court dated March 12, 2015,
as amended April 21, 2015, inter alia, granting the
cross motion of the defendant Wells Fargo Bank, NA,

3a
for summary judgment on its combined fourth affirm­
ative defense, first counterclaim, and first cross claim,
declared that the defendant Wells Fargo Bank, NA,
as holder of a certain mortgage dated August 14,2006,
in the principal amount of $380,000, has a valid and
subsisting first priority mortgage lien against the sub­
ject property.
ORDERED that the judgment is affirmed insofar
as appealed from, with costs.
In 2010, the plaintiff, JP Morgan Chase Bank, NA
(hereinafter JPMorgan), commenced this action to fore­
close a mortgage given by the defendant Ofra Levin in
February 2006, securing a home equity line of credit in the
sum of $200,000. Levin, appearing pro se, answered the
complaint. Thereafter, the defendant Wells Fargo Bank,
NA (hereinafter Wells Fargo), interposed an amended
answer to the complaint. Wells Fargo asserted a com­
bined fourth affirmative defense, first counterclaim, and
first cross claim (hereinafter collectively claim) pursu­
ant to RPAPL article 15 to compel the determination
of claims to real property, alleging that the mortgage it
held in the sum of $380,000, given by Levin in August
2006, was a superior first mortgage lien, as evidenced
by a subordination agreement it entered into with
JPMorgan in August 2006, which agreement was
never recorded.
After JPMorgan and Wells Fargo executed a stip­
ulation of settlement, Levin moved pursuant to
CPLR 3025(b) for leave to serve an amended answer to
the complaint and Wells Fargo’s claim. JPMorgan

4a
cross-moved pursuant to CPLR 3217(b) to discontinue
the action without prejudice and to cancel the notice of
pendency, and Wells Fargo cross-moved for summary
judgment on its claim. In an order dated March 12,
2015, as amended April 21, 2015, the Supreme Court
denied Levin’s motion and granted the cross motions.
Thereafter, the court issued a judgment, inter alia, de­
claring Wells Fargo’s mortgage to be a valid and sub­
sisting first priority mortgage lien against the subject
property. Levin appeals.
In support of its cross motion, Wells Fargo demon­
strated its prima facie entitlement to judgment as a
matter of law on its claim (see CPLR 3001, 3017 [b]; Al­
varez v Prospect Hosp., 68 NY2d 320, 324) by establish­
ing that its mortgage was valid and superior in priority
to JPMorgan’s mortgage (see Lend-Mor Mtge. Bankers
Corp. v Nicholas, 69 AD3d 680, 681; Washington Mut.
Bank, FA v Peak Health Club, Inc., 48 AD3d 793, 797).
In opposition to Wells Fargo’s prima facie showing,
Levin failed to raise a triable issue of fact (see LendMar Mtge. Bankers Corp. v Nicholas, 69 AD3d at 681;
Washington Mut. Bank, FA v Peak Health Club, Inc.,
48 AD3d at 798). Levin does not dispute the validity
of Wells Fargo’s mortgage, and as a nonparty to the
subordination agreement and the stipulation of set­
tlement, she lacks standing to challenge the terms
thereof (see VAC Serv. Corp. v Technology Ins. Co., Inc.,
49 AD3d 524, 525). Further, to the extent that Levin
challenges Wells Fargo’s standing to commence an ac­
tion to foreclose its mortgage, that contention is mis­
placed, as Wells Fargo’s claim is not one to foreclose

5a
a mortgage and standing is not an issue herein (see
Zuniga u BAC Home Loans Servicing, L.P., 147 AD3d
882, 884; Jahan v U.S. Bank N.A., 127 AD3d 926, 927).
RIVERA., J.P, DUFFY, BARROS and IANNACCI, JJ.,
concur.
ENTER:
/s/

Aprilanne Agostino
April anne Agostino
Clerk of the Court
(Entered May 16, 2018
Supreme Court of New York
Appellate Division)

6a
APPENDIX C
At an Trial/IAS Part 23, Fore­
closure Part, of the Supreme
Court of the State of New York
held in and for the County
of Nassau at the Courthouse
thereof in Mineola, New York,
on July 10, 2015
PRESENT:
HON. THOMAS A ADAMS,
Justice.
J.P. MORGAN CHASE BANK, N.A., Index No. 337/10
Plaintiff,
-againstOFRA LEVIN; GENERAL MOTORS
ACCEPTANCE CORPORATION;
WELLS FARGO BANK, NAAS
TRUSTEE; NEW YORK STATE
DEPARTMENT OF TAXATION JUDGMENT
& FINANCE; “JOHN DOES” and
“JANE DOES”, said names being
fictitious, parties intended being
possible tenants or occupants of
premises, and corporation, other
entities or persons who claim or may
claim, alien against the premises,
Defendant(s)
Defendant Ofra Levin (“Defendant Levin”) having
moved this Court, pursuant to CPLR §3025(b), for

7a
leave to serve and file an amended answer with coun­
terclaims and a reply with cross claims to the cross
claims of defendant Wells Fargo Bank, N.A., as Trustee
(“Wells Fargo”), and having submitted in support of
that motion, and in opposition to the cross-motions re­
cited below, a notice of motion dated October 7, 2014,
the affidavit of Ofra Levin, sworn to October 7, 2014,
the undated affirmation of Elliot S. Schlissel, the affi­
davit of Ofra Levin, sworn to December 1, 2014, the af­
firmation of Michael J. Ciaravino, dated December 1,
2014, and the sur-reply affirmation of Elliot S. Schlis­
sel, dated January 19, 2015, together with the exhibits
annexed to the foregoing; and plaintiff J.P. Morgan
Chase Bank, N.A. (“Chase”) having cross-moved for
leave to discontinue this action and cancel the corre­
sponding notice of pendency thereof, and having sub­
mitted in support of that cross-motion a notice of cross­
motion, dated November 3, 2014, and the affirmation
of Robert H. King, dated November 3, 2014, together
with the exhibits annexed thereto; and Wells Fargo
having cross-moved for summary judgment on the
Fourth Affirmation Defense, First Counterclaim and
First Cross-Claim alleged in its amended answer,
dated January 17, 2012, and having submitted in sup­
port of that cross-motion, and in full or partial opposi­
tion to the other motions recited above, a notice of
cross-motion dated November 1, 2014, the affirmation
of Erik H. Rosanes, dated November 1, 2014, the affir­
mation in partial support and in partial opposition to
plaintiff’s cross-motion of Erik H. Rosanes dated No­
vember 10, 2014, the reply affirmation of Erik H. Ro­
sanes, dated December 12, 2014, together with the

8a
exhibits annexed to the foregoing including the stipu­
lation dated September 29, 2014 between the attor­
neys of record for Wells Fargo and Chase, and the
February 10, 2015 letter of Erik H. Rosanes to the
Court objecting to the untimely and unauthorized sub­
mission of the sur-reply affirmation of Elliot S. Schlissel, dated January 19, 2015; and that motion and those
cross-motions having duly come on to be heard by the
Court on December 15, 2014, and having them been
duly submitted, and, after due deliberation thereon,
the Court having made a short form order, dated
March 12, 2015 and entered in the office of the Nassau
County Clerk on March 31, 2015, as amended by the
Court, sua sponte, by short-form order dated April 21,
2015: granting Chase’s motion to discontinue its ac­
tion and cancel the corresponding notice of pendency
thereof; granting Defendant Wells Fargo’s motion for
summary judgment and directing Wells Fargo to settle
a judgment on notice thereon pursuant RPAPL §1521;
and denying Defendant Levin’s motion as untimely
and devoid of merit;
NOW, upon the foregoing papers and upon the mo­
tion of Wells Fargo’s attorneys, Donohue, McGahan,
Catalano & Belitsis, 380 North Broadway, PO Box 350,
Jericho, New York 11753-0350, it is
ADJUDGED AND DECLARED, that Wells Fargo,
as the holder of that certain mortgage dated August
14,2006 made by Ofra Levin in favor of Mortgage Elec­
tronic Registration Systems, Inc., (“MERS”) as nomi­
nee for Superior Home Mortgage, in the principal
amount of. $380,000.00 against the residential real

9a
property known as 960 ClifFside Avenue, Valley Stream,
Town of Hempstead, County of Nassau and State of
New York, designated on the Land and Tax Map of
Nassau County as Section 39, Block 601, Lot 16, and
more particularly described on Schedule A hereto (here­
inafter referred to as “960 Cliffside Avenue”), which
mortgage was recorded in the Office of the Nassau
County Clerk, on September 26, 2006 in Liber 31024,
Page 465, has a valid and subsisting first priority mort­
gage lien against 960 Cliffside Avenue, in the principal
amount of $380,000.00, together with such interest
and other charges as may be secured thereby, by virtue
of such mortgage; and it is further
ADJUDGED AND DECLARED, that any rights of
Chase under the mortgage pleaded by it in this action
against defendants and 960 Cliffside Avenue, that is,
that certain home equity line mortgage dated Febru­
ary 20, 2006 made by Ofra Levin in favor of Chase and
recorded in the office of the Nassau County Clerk on
March 22, 2006 in Liber 30247, Page 522, are inferior,
subject and subordinate to the rights of Wells Fargo
under the mortgage held by Wells Fargo as set forth
above, pursuant to that certain Subordination of Mort­
gage, dated August 9, 2006, executed by Chase and the
stipulation in this action, dated September 29, 2014,
by and between the attorneys of record for Chase and
Wells Fargo; and it is further
ADJUDGED AND DECLARED, that any rights or
claims of Chase and the defendants, or anyone claim­
ing through or under them, in or to 960 Cliffside Ave­
nue are inferior and subject and subordinate to the

10a
rights of Wells Fargo under the mortgage held by Wells
Fargo as set forth above; and it is further
ADJUDGED AND DECLARED, that the parties
hereto, and any person claiming under or through
them or any of them, be barred to any claim to an es­
tate or interest in or to 960 Cliffside Avenue incon­
sistent with or prior in right to the interest claimed by
Wells Fargo under the mortgage held by Wells Fargo
as set forth above; and it is further
ADJUDGED AND DECLARED that, upon presen­
tation to her of a certified copy of this judgment, and
upon payment of the appropriate fees therefor, if any,
the Clerk of the County of Nassau shall record this
judgment in the real property records maintained by
her and index same against the real property known
as 960 Cliffside Avenue, Valley Stream, Town of Hemp­
stead, County of Nassau and State of New York, desig­
nated on the Land and Tax Map of Nassau County as
Section 39, Block 601, Lot 16, and more particularly
described on Schedule A hereto, in lieu of that certain
Subordination of Mortgage dated August 9, 2006, to
record and reflect Wells Fargo’s rights and claims un­
der the mortgage held by Wells Fargo set forth above,
nunc pro tunc to August 14, 2006; and it is further
ORDERED, ADJUDGED AND DECLARED that
the Fifth Affirmative Defense and Second Counter­
claim pleaded by Wells Fargo in its amended answer
herein dated January 17, 2012 is deemed withdrawn
and discontinued without prejudice; and it is further

11a
ORDERED, ADJUDGED AND DECLARED that
the motion of Defendant Levin for leave to amend her
answer and to interpose an answer to Wells Fargo’s
cross claims is denied in all respects; and it is further
ORDERED, ADJUDGED AND DECLARED that
this action is hereby otherwise discontinued and the
corresponding notice of pendency thereof filed by
Chase on or about January 7,2010 is hereby cancelled;
and it is further
ADJUDGED, that defendant Wells Fargo Bank,
N.A., residing at 9062 Old Annapolis Road, Columbia,
Maryland 21045-1951, recover of Defendant Ofra Levin,
residing at 960 Cliffside Avenue, North Woodmere,
New York 11581, costs and disbursements in the
amount of $245.00, as taxed, and that Wells Fargo have
execution therefor.
ENTER.
/s/ Thomas A. Adams
Thomas A. Adams, J.S.C.
(Entered July 24, 2015
Supreme Court of New York
Nassau County)

12a
APPENDIX D
SHORT FORM ORDER
SUPREME COURT ■ STATE OF NEW YORK
PRESENT: HON. THOMAS A. ADAMS
Supreme Court Justice
X

FORECLOSURE PART
NASSAU COUNTY

JP MORGAN CHASE
BANK, NA,
Plaintiff,

Index No.: 000337/10
Motion Date: 09/10/12
Motion Seq.: 02

-againstOFRA LEVIN; GENERAL
MOTORS ACCEPTANCE
CORPORATION; WELLS
FARGO BANK, NA AS
TRUSTEE, et al.,
Defendants.
X

The following papers were read on this applica­
tion:
1
Notice of Motion. Affidavit and Exhibits
2
Affidavit in Opposition and Exhibits.
3
Affidavit in Reply...................................
Upon the foregoing papers the motion by defend­
ant, Offa Levin (movant), for an order, pursuant to
CPLR § 2221, for leave, to renew and / or reargue, the
movant’s prior motion brought by Order to Show
Cause, which was denied by Order of this Court dated
June 1, 2012, and upon granting renewal or reargu­
ment, striking defendant/counter-plaintiff, Wells Fargo
Bank NA as Trustee’s (Wells Fargo), answer, affirmative

13a
defenses, counterclaims and to impose sanctions for
frivolous practice, is determined as set forth herein.
Pursuant to CPLR § 2221(d)(2) and (3), a motion
to reargue “shall be based upon matters of fact or law
allegedly overlooked or misapprehended by the court
in determining the prior motion, but shall not include
any matters of fact not offered on the prior motion; and
shall be made within thirty days after service a copy of
the order determining the prior motion and written no­
tice of its entry”.
“A motion for reargument is addressed to the
sound discretion of the court and may be granted upon
a showing that the court overlooked or misappre­
hended the relevant facts or misapplied any control­
ling principle of law (see, Pahl Equip. Corp.. v. Kassis.
182 AD2d 22; Folev v. Roche. 68 AD2d 558).” McGill v.
Goldman. 261 AD2d 593, 594).
A motion to renew, shall be based upon new facts
not presented to the court in connection with the prior
motion that would change the court’s prior determina­
tion or shall demonstrate that there has been a change
in the law which would change the prior decision and
shall provide a reasonable justification for the failure
to present the new facts on the prior motion. CPLR
§2221(e).
To grant renewal the court must find that the
party presenting the new facts has a reasonable excuse
for failing to present those facts on the prior motion
(see Kaufman v. Kunis. 14 AD3d 542; Yarde v New York
City Transit Auth., 4 AD3d 352. A party establishes a

14a
reasonable excuse when the facts existed but were not
known to the movant when the prior motion was made
(see Johnson v. Marquez, 2 AD3d 786; Riccio v. Deperalta, 274 AD2d 384, app dism, 95 NY2d 957).
A motion to renew is not a second chance given to
a party who failed to exercise due diligence when mak­
ing the initial application (see Renna v. Gullo, 19 AD3d
472; O’Dell v Caswell. 12 AD3d 492).
Despite the movant’s assertions to the contrary no
new facts or change in law have been presented that
would change this Courts prior determination, as such
the branch of the motion to renew is denied.
Based upon the movant’s assertions that the
Court overlooked or misapprehended facts and or law
in making its determination, the branch of the motion
to reargue, is granted, and upon reargument, defend­
ant, Levin’s motion is denied.
As this Court has previously held, on a CPLR
§ 3211 motion to dismiss for “failure to state a cause of
action, the court must afford the pleading a liberal con­
struction, accept all facts as alleged in the pleading to
be true, accord the plaintiff the benefit of every possi­
ble inference, and determine only whether the facts as
alleged fit within any cognizable legal theory (quota­
tions omitted).” East Hampton Union Free School
Dist.. v. Sandpebble Builders. Inc.. 66 AD3d 122, 125,
aff’d 16 NY3d 775 (2011), quoting Brevtman v. Olinville Realty. LLC.. 54 AD3d 703, 303-304, Iv dism., 12
NY3d 378, citing Leon v. Martinez. 84 NY2d 83, 87

15a
(1994); Smith v. Meridian Technologies. Inc.. 52 AD3d
685, 686.
A complaint may be dismissed based upon docu­
mentary evidence, pursuant to CPLR 3211(a)(1), if the
factual allegations contained therein are definitively
contradicted by the evidence submitted or a defense is
conclusively established thereby (see Yew Prospect.
LLC v. Szulman. 305 AD2d 588; Sta-Bright Services.
Inc, v. Sutton. 17 AD3d 570). “On a motion to dismiss
based on documentary evidence, dismissal is only war­
ranted if the documentary evidence submitted conclu­
sively establishes a defense to the asserted claims as a
matter of law” Moore v. Liberty Power Corp.. LLC. 72
AD3d 660,661) quoting Klein v. Gutman. 12 AD3d 417,
418. To obtain dismissal “the documentary evidence
that forms the basis of the defense must be such that
it resolves all factual issues as a matter of law, and con­
clusively disposes of the plaintiff’s claim” Teitler v.
Max J. Pollack & Sons. 288 AD2d 302; see Leon v. Mar­
tinez. 84 NY2d 83; Sheridan v. Town of Orangetown. 21
AD3d 365.
In New York to assert a cause of action for foreclo­
sure, the plaintiff must allege in the pleading: the ex­
istence of a promissory note; the existence of a related
mortgage referable to the subject property; plaintiff’s
ownership of the mortgage and the borrowers default
under the terms of the note, (see Wells Fargo Bank v.
Cohen. 80 AD3d 753,755 [2nd Dept. 2011]).
Insofar as a motion pursuant to CPLR § 3211 re­
quires this Court to accept as true the allegations in

16a
the complaint (see Guggenheimer v. Ginsberg, 43
NY2d 268, 275 [1977]), the Here when affording the
pleading the benefit of every possible inference and ac­
cepting the allegations as true, the motion must be de­
nied as Wells Fargo sufficiently alleges a cause of
action in this residential mortgage foreclosure action.
Contrary to the movant’s contention, a plaintiff is
not required to plead its standing to commence an ac­
tion, nor is it always required to prove its standing to
be entitled to relief.
Only where standing has been put in issue by a
defendant’s pre-answer motion or by an affirmative de­
fense set forth in an answer must the plaintiff prove
its standing to be entitled to relief from the court (see
Wells Fargo Rank Minn. NA v Mastropaolo. 42 AD3d
239 [2nd Dept. 2007], citing TPZ Corp. v Dabbs. 25
AD3d 25 AD3d 787 [2nd Dept. 2006]).
Only after that issue has been properly raised,
a plaintiff establishes its standing by demonstrating
that it is both the holder or assignee of the subject
mortgage and the holder or assignee of the under­
lying note “either by physical delivery or execution
of a written assignment prior to the commence­
ment of the action” (Citimortage Inc, v Stosel. 89 AD 3d
887 [2nd Dept. 20111. quoting Aurora Loan Servs.. LLC
v Weisblum. 85 AD3d 95, 108 [2nd Dept 2011]; see US
Bank of NY v Silverberg. 86 AD3d 274 [2nd Dept.
2011]; Citibank. N.A.. v Swiatkowski. 98 AD3d 555 [2d
Dept 2012]; U.S.Bank. NA v Collvmore.68 AD3d 752
[2nd Dept. 2009] Wells Fargo Bank. NA v Marchione,

17a
69 AD3d 204 [2nd Dept. 2009]) “Where a mortgage is
represented by a bond or other instrument, an assign­
ment of the mortgage without assignment of the un­
derlying note or bond is a nullity” U.S.Bank. NA v
Collymore. supra at 754).
However, a written assignment of the underlying
note or the physical delivery of the note prior to
the commencement of the foreclosure action is suffi­
cient to transfer the obligation and vest standing in the
plaintiff, since the mortgage passes with the debt that
is evidenced by the note as an inseparable incident
thereto (see US Bank Natl. Assn, v Cange. 96 AD3d 825
[2nd Dept. 2012]; GRP Loan. LLC v Tavlor. 95 AD3d
1172 [2nd Dept. 2012]; Deutsche Bank Natl. Trust Co.
v Rivas. 95 AD3d 1061 [2nd Dept. 2012]; US Bank.
Natl. Assn, v Sharif. 89 AD3d 723 [2nd Dept. 2011];
U.S. Bank. NA v Collvmore. 68 AD3d at 754, supra). A
plaintiff’s standing in a mortgage foreclosure action is
measured by its ownership, holder status or possession
of the note and mortgage at the time of the commence­
ment of the action US Bank of NY v Silverberg. 86
AD3d 274 [2nd Dept. 2011] U.S.Bank. NA v Collvmore.
supra; Wells Fargo Bank. NA v Marchione. 69 AD3d
204 [2nd Dept. 2009]). Mortgage loan servicers and
other agents of the owner, holder or possessor of the
note and mortgage at the time of commencement also
possess standing to prosecute claims for foreclosure
and sale (see RPAPL §1304[1] [authorizing lenders, as­
signees or mortgage loan servicers to commence mort­
gage foreclosure actions]; RPAPL §1302[1] [requiring
plaintiffs in some foreclosure actions to allege that it is
the owner and holder of the note and mortgage or has

18a
been delegated the authority to prosecute action by
such]; see also Wells Fargo Bank. NA v Edwards, 95
AD3d 692 [1st Dept. 2012] [action properly maintained
in plaintiff’s capacity as trustee under a pooling and
servicing agreement that predated the commencement
of the action]: CWCapital Asset Mgt. v Charnev—FPG
114 41st St.. LLC.. 84 AD3d 506 [1st Dept. 2011] [ac­
tion properly maintained in plaintiff’s capacity as ser­
vicing agent\; Fairbanks Capital Corp. v Nagel. 289
AD2d 99 [1st Dept. 2001] [delegation of mortgage to
service agent by mortgagee was sufficient to give service
agent standing to sue\; Deutsche Bank Natl. Trust Co.
v Pietranico. 33 Misc 3d 528 [Sup.Ct., Suffolk County,
2011] [agent and nominee of original lender had stand­
ing to prosecute action]; see also US Bank. NA v Flynn.
27 Misc 3d 802, 806 [Sup. Ct., Suffolk County 2010]).
However, as the ownership, holder status or pos­
sessory interest of the plaintiff or its duly delegated
agent bears solely upon the issue of standing, and not
upon the sufficiency of the claim, the pleading and
proving of such interest is not an element of the plain­
tiff’s claim for foreclosure and sale (see Wells Fargo
Bank Minn, NA v Mastropaolo. 42 AD3d 239 [2nd
Dept. 2008]; cf., U.S. Bank Nat. Assn, v Dellarmo, 94
AD3d 746 [2nd Dept. 2012]).
The foregoing rule is the result of the nature of the
issue of standing under principles of New York juris­
prudence, in which it has recently been established
that the issue of a plaintiff’s standing is not an issue
concerning subject matter jurisdiction, but instead, is
an affirmative defense in bar which may be waived by
a defendant possessed of such defense (see Wells Fargo

19a
Bank Minn. NA v Mastropaolo. supra; see also HSBC
Bank TTSA. NA v Schwartz. 88 AD3d 961 [2nd Dept.
2011]; Citi Mtge.. Inc, v Rosenthal. 88 AD3d 759, 931
NYS2d 638 [2nd Dept. 2011]. A plaintiff is thus under
no obligation to plead and prove its standing in the
first instance.
Accordingly, as the movant has properly raised the
issue of standing, Wells Fargo must prove its standing
to be entitled to relief (see US Bank N.A., v. Madero. 80
AD3d 751, 752 [2nd Dept. 2011], citing U.S. Bank. NA
v Collvmore. supra at 753). However, the failure of a
plaintiff to establish that it was either the lawful
holder or assignee of the subject note at the time the
action was commenced, does not require the dismissal
of the action at this stage, (see US Bank N.A.. v. Madero.
supra at 753).
Therefore, for the afore-noted reasons, the defend­
ant, Ofra Levin’s, motion to reargue is granted, and
upon reargument the prior motion, is again denied.
This constitutes the decision and Order of the Court.
ENTER:
Dated: DEC 6 2012
/s/

Thomas A. Adams
HON. THOMAS A. ADAMS
Supreme Court Justice
(Entered December 10, 2012
Nassau County
County Clerk’s Office)

